                                                                         United States Department of State

                                                                         The luspeNor GNwral




                                                                      December 16, 20 13



Board of Governors
Broadcasting Board of Governors
330 Independence Avenue SW, Room 3360
Washington, DC 20237

Dear Members of the Board:

An independent certified public accounting firm, Kearney & Company, P.C., was engaged to
audit the consolidated financial statements of the Broadcasting Board of Governors (BBG) as of
September 30, 2013, and for the year then ended; to provide a report on intemal control over
financial repmting; and to report any reportable noncompliance with laws, regulations, contracts,
and grant agreements it tested. The contract required that the audit be performed in accordance
with U.S. generally accepted government auditing standards and Office of Management and
Budget audit guidance.

Jn its Independent Auditor ·s Report on the Broadcasting Board of Governors 2013 Financial
Slatements (AUD-FM-IB-14-14), Kearney & Company found

         •   the consolidated financ ial statements present fair ly, in all material respects, the
             fmancial position of BBG as of September 30, 2013, and its net cost of operations,
             changes in net position, and budgetary resources for the year then ended, in
             accordance with accounting principles generally accepted in the United States of
             America;

         •   three material weaknesses 1 in internal control over financial reporting; and

         •   instances of reportable noncompliance with laws, regulations, contracts, and grant
             agreements tested.

The BBG 2012 consolidated financial statements were audited by a predecessor auditor whose
report, dated November 16, 2012, expressed an unqualified opinion on those statements. The
predecessor auditor reported on the consolidated financ ial statements of the prior period before
restatement.


1
  A material weakness is a deficiency, or combination of deficiencies, in internal control, such that there is a
reasonable possibility that a material misstatement of the entity's financial statements will not be prevented, or
detected and corrected, on a timely basis.
As part of Kearney & Company"s audit of the 2013 consolidated financial staLCments, Keamey
& Company also audited the adjustments that were applied by BBG to restate its 2012
consolidated financial statements. ln Kearney & Company's opinion, such adjustments are
appropriate and have been properly applied. Kearney & Company was not engaged to audit the
BBG 2012 consolidated financial statements other than with respect to the adjustments and,
accordingly. Kearney & Company does not express an opinion or any other fonn of assurance on
the 2012 consolidated financial statements as a whole.

Kearney & Company is responsible for the enclosed auditor's report, which includes the
Independent Auditor's Report, U1e Report on Internal Control Over Financial Reporting, and the
Report on Compliance With Applicable Provisions of Laws, Regulations, Contracts, and Grant
Agreements, dated December 14, 2013, and U1e conclusions expressed in the report. The Office
ofl nspector General (O !G) docs not express an opinion on BBG's consolidated unancial
statements or conclusions on internal control over financial reporting and compliance wiU1laws,
regulations, contracts. and grant agreements.

1380's comments on the aud itor's report are attached to the report.

OJG appreciates the cooperation extended to it and Kearney & Company by BBG managers and
staff during this audit.

Sincerely,




Inspcctor General

Enclosure: As stated.

cc: Leslie Hyland, BBG/CFO




                                                 2
                                                           1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                           PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com


                            INDEPENDENT AUDITOR’S REPORT
                                   AUD-FM-IB-14-14

To the Board of Governors and the Inspector General of the Broadcasting Board of Governors

Report on the Financial Statements

We have audited the accompanying consolidated financial statements of the Broadcasting Board
of Governors (BBG), which comprise the consolidated balance sheet as of September 30, 2013,
the related consolidated statements of net cost and changes in net position and the combined
statement of budgetary resources for the year then ended, and the related notes to the
consolidated financial statements (hereinafter referred to as the “consolidated financial
statements”).

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these consolidated
financial statements in accordance with accounting principles generally accepted in the United
States of America; this includes the design, implementation, and maintenance of internal control
relevant to the preparation and fair presentation of financial statements that are free from
material misstatement, whether due to fraud or error.

Auditor’s Responsibility

Our responsibility is to express an opinion on these consolidated financial statements based on
our audit. We conducted our audit in accordance with auditing standards generally accepted in
the United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal
Financial Statements. Those standards and OMB Bulletin No. 14-02 require that we plan and
perform the audit to obtain reasonable assurance about whether the consolidated financial
statements are free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the financial statements. The procedures selected depend on the auditor’s
judgment, including the assessment of the risks of material misstatement of the financial
statements, whether due to fraud or error. In making those risk assessments, the auditor
considers internal control relevant to the entity’s preparation and fair presentation of the financial
statements in order to design audit procedures that are appropriate under the circumstances, but
not for the purpose of expressing an opinion on the effectiveness of the entity’s internal control.
Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness
of accounting policies used and the reasonableness of significant accounting estimates made by
management, as well as evaluating the overall presentation of the financial statements.




                                                  1
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our audit opinion.

Opinion on the Consolidated Financial Statements

In our opinion, the consolidated financial statements referred to above present fairly, in all
material respects, the financial position of BBG as of September 30, 2013, and its net cost of
operations, changes in net position, and budgetary resources for the year then ended, in
accordance with accounting principles generally accepted in the United States of America.

Emphasis of Matters

As discussed in Note 1 to the consolidated financial statements, in FY 2013, BBG adopted new
accounting guidance issued by the Federal Accounting Standards Advisory Board (FASAB) –
specifically, Technical Bulletin 2006-1, Recognition and Measurement of Asbestos-Related
Cleanup Costs. In addition, as discussed in Note 1 to the consolidated financial statements, BBG
changed its method of reporting actuarial liabilities and benefit plan assets relating to after-
employment benefits provided to Foreign Service National overseas staff in FY 2013. Our
opinion is not modified with respect to these matters.

Other Matters

FY 2012 Financial Statements Audited by a Predecessor Auditor

BBG’s consolidated financial statements as of, and for the year ended, September 30, 2012, were
audited by a predecessor auditor whose report, dated November 16, 2012, expressed an
unqualified opinion on those consolidated financial statements. The predecessor auditor reported
on the prior period consolidated financial statements before restatement.

As part of our audit of the FY 2013 consolidated financial statements, we also audited the
adjustments described in Note 18 that were applied to restate the FY 2012 consolidated financial
statements. These notes describe the amount of the restatements and the effect on the financial
statements. In our opinion, such adjustments are appropriate and have been properly applied.
We were not engaged to audit, review, or apply any procedures to BBG’s FY 2012 consolidated
financial statements other than with respect to the adjustments, and accordingly, we do not
express an opinion or any other form of assurance on the FY 2012 consolidated financial
statements as a whole. Our Report on Internal Control Over Financial Reporting includes a
discussion of the significant internal control deficiencies that failed to prevent or detect the
misstatements.

Required Supplementary Information

Accounting principles generally accepted in the United States of America require that the
Management’s Discussion and Analysis and Deferred Maintenance (hereinafter referred to as
“required supplementary information”) be presented to supplement the consolidated financial


                                                2
statements. Such information, although not a part of the consolidated financial statements, is
required by OMB Circular A-136, Financial Reporting Requirements, and FASAB, which
consider it to be an essential part of financial reporting for placing the consolidated financial
statements in an appropriate operational, economic, or historical context. We have applied
certain limited procedures to the required supplementary information in accordance with auditing
standards generally accepted in the United States of America, which consisted of inquiries of
management about the methods of preparing the information and comparing it for consistency
with management’s responses to our inquiries, the consolidated financial statements, and other
knowledge we obtained during our audits of the consolidated financial statements. We do not
express an opinion or provide any assurance on the information because the limited procedures
do not provide us with sufficient evidence to express an opinion or provide any assurance.

Other Information

Our audit was conducted for the purpose of forming an opinion on the consolidated financial
statements as a whole. The Message from the BBG Chairman, the Performance Information, the
Letter from the Chief Financial Officer, the Inspector General’s Statement on FY 2012
Management and Performance Challenges, the Agency Response to the Management and
Performance Challenges, the Summary of Financial Statement Audit and Management
Assurances, and the Improper Payments Information Act Reporting are presented for purposes of
additional analysis and are not a required part of the consolidated financial statements. Such
information has not been subjected to the auditing procedures applied in the audit of the
consolidated financial statements, and accordingly, we do not express an opinion or provide any
assurance on it.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards and OMB Bulletin No. 14-02, we have also
issued reports, dated December 14, 2013, on our consideration of BBG’s internal control over
financial reporting and on our tests of BBG’s compliance with certain provisions of laws,
regulations, contracts, and grant agreements for the year ended September 30, 2013. The
purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing and not to provide an opinion on internal
control over financial reporting or on compliance. Those reports are an integral part of an audit
performed in accordance with auditing standards generally accepted in the United States of
America, Government Auditing Standards, and OMB Bulletin No. 14-02, in considering BBG’s
internal control over financial reporting and compliance.




Alexandria, Virginia
December 14, 2013



                                                 3
                                                           1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                           PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com


       INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL OVER
                        FINANCIAL REPORTING

To the Board of Governors and the Inspector General of the Broadcasting Board of Governors

We have audited the consolidated financial statements of the Broadcasting Board of Governors
(BBG) as of and for the year ended September 30, 2013, and have issued our report thereon
dated December 14, 2013. We conducted our audit in accordance with auditing standards
generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements
for Federal Financial Statements.

Internal Control Over Financial Reporting

In planning and performing our audit of the consolidated financial statements, we considered
BBG’s internal control over financial reporting (internal control) as a basis for designing audit
procedures that are appropriate under the circumstances for the purpose of expressing our
opinion on the consolidated financial statements but not for the purpose of expressing an opinion
on the effectiveness of BBG’s internal control. Accordingly, we do not express an opinion on
the effectiveness of BBG’s internal control. We limited our internal control testing to those
controls necessary to achieve the objectives described in OMB Bulletin No. 14-02. We did not
test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982, such as those controls relevant to ensuring efficient
operations.

Our consideration of internal control was for the limited purpose described in the preceding
paragraph and was not designed to identify all deficiencies in internal control that might be
material weaknesses or significant deficiencies; therefore, material weaknesses or significant
deficiencies may exist that were not identified. However, as described in the following sections,
we identified certain deficiencies in internal control that we consider to be material weaknesses
and significant deficiencies.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct, misstatements on a timely basis. A material weakness is a
deficiency, or combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected, on a timely basis. We consider the following deficiencies in BBG’s
internal control to be material weaknesses.




                                                 1
                                      Material Weaknesses

I.       Grantee Monitoring and Accounting for Grant Advances

BBG has three grantees that it funds through annual grant agreements: Radio Free Europe/Radio
Liberty, Radio Free Asia, and Middle East Broadcasting Networks. The grantees are responsible
for developing broadcast content (radio and television news programs), which is distributed by
BBG. The three grantees annually receive approximately one third of BBG’s funding. We
identified control deficiencies relating to BBG’s management of its grantees that, when
combined, constituted a material weakness in internal control. The individual deficiencies we
identified are summarized as follows:

     •   Grantee Monitoring – BBG is responsible for monitoring how its grantees use BBG funds
         to ensure the grantees adhere to relevant laws and regulations as well as the terms and
         conditions specified in the grant agreements. BBG’s process for overseeing grantee
         activities and compliance consisted mainly of maintaining a binder for each grantee that
         contained signed grant agreements, amendments, financial plans, funding requests,
         payment vouchers, and the monthly financial reports prepared by each grantee.
         Although, BBG was maintaining binders for each grantee, we noted the following
         instances where BBG did not sufficiently monitor the three grantees:

            o BBG did not have specific procedures in place for post-award monitoring to
              ensure grantees were not using Federal awards for unallowable costs.
            o BBG did not obtain and review property listings for all grantees. The property
              listing obtained from one grantee lacked the necessary information to reconcile to
              accounting records, and BBG grant officials could not document that follow up
              had been performed.
            o The FY 2012 OMB Circular A-133, Audits of States, Local Governments and
              Non-Profit Organizations, audit reports for one grantee identified an issue related
              to unallowable costs. Although BBG was responsible for issuing a management
              decision on this issue, there was no evidence that BBG officials were aware of
              this finding.
            o BBG does not have oversight policies and procedures in place to ensure grantees
              have mandated procurement procedures.
            o BBG’s grant terms and conditions state that grantees should provide advance
              notification of new contracts and leases exceeding certain thresholds for BBG
              approval. No documentation was provided showing that BBG grant officials
              obtained this required information from the grantees.
            o There was no evidence that the grantees had requested and been provided with
              disposition instructions from BBG concerning disposals of property over a certain
              threshold acquired using Federal funds.
            o There was no evidence of grantee certifications regarding disbarment and
              suspension.




                                                2
          BBG has developed a handbook to provide guidance to BBG officials about the
          administration and oversight of grants. Although the handbook specifies monitoring
          procedures, it does not define specific roles and responsibilities. In addition, staff
          turnover and the lack of sufficient oversight protocols led to inconsistent execution and
          documentation of grant monitoring. The lack of effective grantee oversight procedures
          increases the risk of waste, fraud, and abuse of Federal funds.

      •   Grant Advances – We found that BBG did not record funds advanced to its grantees in its
          annual financial statements. Our review of the grantees’ financial statements identified
          significant cash balances provided by BBG that, according to accounting principles,
          should be reported as advances by the grant-making organization. Instead, BBG recorded
          an expense as soon as the funds were transferred to the grantees. Because BBG did not
          have a sufficient process in place to monitor its grantees, BBG officials did not have a
          complete understanding of grantee operations and financial management practices and
          were unaware that the grantees had significant unused funds.

          As a result of our findings, BBG requested financial information from the grantees,
          which should have been easy for the grantees to provide, in order to report the required
          grant advances in BBG’s financial statements. According to BBG officials, the grantees
          did not provide requested information in a timely manner to facilitate the preparation of
          BBG’s financial statements. Because BBG’s grantees were unwilling or unable to
          provide the requested information, BBG had no alternative but to consider other methods,
          which were less precise, to estimate the material grant advances. Based on the material
          misstatement identified during the audit, BBG restated its FY 2012 financial statements.

II.       Property, Plant, and Equipment

As of September 30, 2013, BBG reported over $100 million in net property, plant, and
equipment (PP&E), which included real and personal property. We identified control
deficiencies with BBG’s PP&E processes that, when combined, constituted a material weakness
in internal control. The individual deficiencies we identified are summarized as follows:

      •   Recording Transmitting Stations as Assets – BBG facilitates its broadcasting mission by
          using Government-owned transmitters, physical radio stations, and broadcasting stations
          strategically located around the world. We found that BBG had 85 FM radio and 5
          television transmitting stations worldwide that had not been recorded as PP&E. Instead,
          BBG had recorded the costs associated with the transmitting stations as expenses.
          Although BBG had several controls in place to reconcile property inventories and search
          for unrecorded capital assets, the controls did not identify the unrecorded transmitting
          stations. The transmitting stations were being tracked outside of BBG’s primary property
          management system. In addition, there was not an effective communication mechanism
          between the BBG officials that were aware of the costs of the transmitting stations and
          BBG financial reporting staff. As a result of the lack of controls, PP&E and expenses
          were materially misstated. BBG recorded an estimated amount for the transmitting
          stations for its FY 2013 financial statements and restated its FY 2012 financial
          statements.


                                                   3
       •   Removing Assets from Service – Agencies are responsible for ensuring that PP&E is
           appropriately valued and reported in the financial statements. Assets that are no longer
           providing service to the organization should be written off. We found two transmitting
           facilities that had ceased operations in 2007 and were permanently out of service. At
           these two locations, we identified 22 assets included in BBG’s financial statements that
           were impaired, obsolete, or permanently removed from service. BBG did not have an
           effective process in place to obtain information on assets that had been removed from
           service and, therefore, PP&E and expenses were misstated.

       •   Accounting for Leases – BBG leases real property in overseas and domestic locations
           under varying types of lease agreements. During FY 2013, BBG had more than 80 leases,
           the majority of which were reported as operating leases. Operating leases allow for the
           use of an asset, but do not convey ownership rights. Capital leases are leases that transfer
           substantially all of the benefits and risks of ownership. We reviewed lease agreements to
           ensure that capital leases were not being inaccurately reported as operating leases. We
           were unable to determine whether all lease agreements were appropriately recorded
           because BBG did not maintain information needed to assess the applicability of capital
           lease criteria. Specifically, BBG did not document the fair market values, economic
           useful lives, present values of future lease payments, or details on lease purchase options.

           BBG used a manual data call process to obtain information on leases annually. However,
           the manual data call process was ineffective in obtaining the data needed to assess leases
           for capitalization in accordance with accounting standards. For instance, the data call
           request sent to posts each year did not request all of the necessary information. In
           addition, the data call request was only sent to posts where officials from Headquarters
           were aware a lease existed. Without an effective process to track and assess leases for
           capitalization, property and expenses may be misstated on BBG’s financial statements.

       •   Unrecorded Leasehold Improvements – Periodically, BBG funds renovations or
           improvements to its leased facilities. BBG capitalizes significant improvements to leased
           facilities that exceed $25,000. We found two renovation projects at leased property that
           were not included in PP&E as required. Instead, BBG had recorded the costs associated
           with these projects as expenses because BBG did not have a process in place to ensure
           that significant leasehold improvements were recorded accurately. As a result PP&E and
           expenses were misstated.

III.       Budgetary Accounting and Funds Control

BBG lacked sufficient reliable funds control over its accounting and business processes to ensure
budgetary transactions were properly recorded, monitored, and reported. Our audit identified
control deficiencies that, when combined, we considered to be a material weakness. The
individual deficiencies we identified are summarized as follows:




                                                    4
•   FY 2012 Apportioned Authority – BBG receives funding through annual appropriations,
    which is apportioned to BBG by OMB. On its statement of budgetary resources (SBR),
    BBG reports the extent to which resources are obligated or unobligated. For unobligated
    balances, BBG is required to further distinguish whether the amounts are apportioned or
    unapportioned. We noted a negative balance of $17 million reported as Apportioned
    Authority on BBG’s FY 2012 SBR, which is an abnormal balance. Upon investigation,
    BBG management noted that the balance should have been approximately $7 million.
    BBG officials indicated that the erroneous apportionment balance was due to the method
    used by BBG’s accounting system to post certain collections and year-end closing
    entries. BBG did not perform effective reviews and comparative analyses of its FY 2012
    financial data, which should have detected the error. Without developing and
    implementing effective routine financial reviews, material errors and anomalies in the
    financial statements may not be identified and corrected. As a result of this material
    error, BBG restated its FY 2012 financial statements.

•   Timeliness of Obligations – BBG should record an obligation in its financial management
    system when it enters into an agreement, such as a contract or a purchase order, to
    purchase goods and services. We identified a number of instances where obligations
    were not created in a timely manner, such as obligations that were not recorded within 15
    days of executing obligating document, obligations that were recorded prior to executing
    the obligating document, and obligations that were posted subsequent to the receipt of
    goods and services or the start of the period of performance for a contract. BBG did not
    have an adequate process in place to ensure that its employees were complying with
    Federal requirements related to the creation, approval, and timely recording of
    obligations. Without an effective obligation process, controls to monitor funds and make
    timely payments may be compromised, which may lead to violations of the
    Antideficiency Act and the Prompt Payment Act.

•   Unliquidated Obligations – Once recorded, obligations remain open until they are fully
    reduced by disbursements, are deobligated, or until the appropriation funding the
    obligations is cancelled. Unliquidated obligations (ULO) represent the cumulative amount
    of orders, contracts, and other binding agreements for which the goods and services
    ordered have not been received, or the goods and services have been received but payment
    has not yet been made.

    We identified numerous invalid ULOs. For domestic obligations, BBG had not
    effectively implemented ULO review procedures. Specifically, BBG officials did not
    perform timely follow-up with program offices to ensure invalid ULOs were identified
    and liquidated. For overseas obligations, BBG did not have a process to obtain a
    population of ULOs or have a standard process to ensure ULOs were periodically
    reviewed for validity. As a result of the identified errors, BBG had an overstatement of
    obligations of $16 million. In addition, funds that could have been used for other
    purposes remained in unneeded obligations.




                                            5
The material weaknesses described above were not identified by BBG’s FY 2013 Federal
Managers’ Financial Integrity Act assessment.

A significant deficiency is a deficiency, or combination of deficiencies, in internal control that is
less severe than a material weakness yet important enough to merit attention by those charged
with governance. We consider the following deficiency in BBG’s internal control to be a
significant deficiency.
                                       Significant Deficiency

I.         Information Technology

BBG uses several financial management systems to compile information for financial reporting
purposes. BBG’s main domestic financial management and accounting system is Momentum,
which is provided by an external service provider. The external service provider is responsible
for maintaining a number of information technology (IT) controls. However, Momentum is
accessed through BBG’s general IT support systems. Therefore, IT deficiencies noted in the
general systems could potentially impact Momentum as well. For overseas accounting and
budget execution, BBG uses the Regional Financial Management System (RFMS) provided by
the Department of State (Department). The Department is responsible for maintaining an
adequate general and application control environment over this system.

The Office of Inspector General (OIG) annually performs an evaluation of BBG and Department
information security program compliance with IT requirements as required by the Federal
Information Security Management Act (FISMA).

We evaluated the internal control structure surrounding the general support systems and key
financial applications used by BBG. We noted weaknesses and vulnerabilities in BBG’s general
support systems and several key financial applications maintained by BBG and the Department.
We identified a number of weaknesses that, when combined, we considered to be a significant
deficiency. The individual deficiencies noted are as follows:

      •    General Support Systems – Collectively, the control deficiencies noted by OIG in its FY
           2013 FISMA report 1 related to BBG’s general support systems represented a significant
           deficiency to enterprise-wide security as defined by OMB guidance. OIG reported that
           the most significant security deficiencies were related to BBG’s risk management
           framework, continuous monitoring program, and the incident response and reporting
           program. These control weaknesses impact BBG’s general support system, which is used
           to access the Momentum system.

      •    Domestic Accounting System Access Controls – As part of our audit, we tested BBG’s
           Momentum system access controls by reviewing whether employees who had separated
           from BBG during FY 2013 had their access to Momentum revoked. [Redacted] (b) (5)



1
    Audit of the Broadcasting Board of Governors Information Security Program (AUD-IT-IB-14-02, Oct. 2013).


                                                        6
      •    Overseas Accounting System Account Monitoring and Separation of Duties – OIG’s FY
           2013 FISMA report 2 for the Department identified deficiencies with the general support
           systems at the Department similar to ones identified at BBG. OIG concluded that the
           issues identified were a significant deficiency to enterprise-wide security. RFMS is
           hosted on the Department’s general support systems.

           We also performed testing on RFMS during the audit of the Department’s FY 2013
           financial statements and found that the Department did not effectively monitor RFMS for
           suspicious behavior or malfunctions. For example, the Department did not have an
           effective process to log and independently monitor changes to the permissions granted to
           user accounts. In addition, we found deficiencies that impacted the ability of the
           Department to identify and mitigate problems with RFMS users that had incompatible
           duties. Specifically, we found that the Department had not defined many RFMS user
           roles, and we identified RFMS users that had been assigned a combination of roles that
           potentially allowed users to perform end-user accounting transactions.

In general, we and OIG found that BBG had not implemented effective standards, policies,
processes, and procedures over its information security program, including its financial
applications. With respect to separated employees with Momentum accounts, we determined
that BBG did not have a formal process to communicate employee separations to the Momentum
system administrators. For RFMS, because of the deficiencies noted with the IT security
program at the Department, BBG needs to implement additional controls to ensure that financial
information is being processed accurately and completely by the Department.

Poor controls over IT security can affect the integrity of financial applications, which increases
the risk that sensitive financial information could be accessed by unauthorized individuals or that
financial transactions could be altered either accidentally or intentionally. IT weaknesses
increase the risk that BBG will be unable to accurately report financial data.

During the audit, we noted certain additional matters involving internal control over financial
reporting that we will report to BBG management in a separate letter.

BBG’s Response to Findings

BBG management has provided its response to our findings in a separate memorandum attached
to this report. We did not audit management’s response, and accordingly, we express no opinion
on it.




2
    Audit of the Department of State Information Security Program (AUD-IT-14-03, Nov. 2013).


                                                         7
Purpose of This Report

The purpose of this report is solely to describe the scope of our testing of internal control over
financial reporting and the results of that testing and not to provide an opinion on the
effectiveness of BBG’s internal control. This report is an integral part of an audit performed in
accordance with auditing standards generally accepted in the United States of America,
Government Auditing Standards, and OMB Bulletin No. 14-02, in considering BBG’s internal
control over financial reporting. Accordingly, this report is not suitable for any other purpose.




Alexandria, Virginia
December 14, 2013




                                                 8
                                                         1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                         PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com


   INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE WITH APPLICABLE
      PROVISIONS OF LAWS, REGULATIONS, CONTRACTS, AND GRANT
                           AGREEMENTS

To the Board of Governors and the Inspector General of the Broadcasting Board of Governors

We have audited the consolidated financial statements of the Broadcasting Board of Governors
(BBG) as of and for the year ended September 30, 2013, and have issued our report thereon
dated December 14, 2013. We conducted our audit in accordance with auditing standards
generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements
for Federal Financial Statements.

Compliance

As part of obtaining reasonable assurance about whether BBG’s consolidated financial
statements are free from material misstatement, we performed tests of its compliance with certain
provisions of laws, regulations, contracts, and grant agreements, noncompliance with which
could have a direct and material impact on the determination of financial statement amounts, and
certain provisions of other laws and regulations specified in OMB Bulletin No. 14-02 that we
determined were applicable. We limited our tests of compliance to these provisions and did not
test compliance with all laws, regulations, contracts, and grant agreements applicable to BBG.
However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion.

The results of our tests disclosed instances of noncompliance that are required to be reported
under Government Auditing Standards and OMB Bulletin No. 14-02 and which are summarized
as follows:

   •   Federal Grant Regulations. BBG is responsible for monitoring the use of funds provided
       to its grantees to ensure the grantees adhere to relevant laws and regulations. As noted in
       our Report on Internal Control Over Financial Reporting, we identified control
       deficiencies that resulted in noncompliance with the following Federal grant regulations:

           o OMB Circular A-110, Uniform Administrative Requirements for Grants and
             Agreements with Institutions of Higher Education, Hospitals and Other Non-
             Profit Organizations, sets forth standards for obtaining consistency and
             uniformity among Federal agencies in the administration of grants to non-profit
             organizations.
           o OMB Circular A-122, Cost Principles for Non-Profit Organizations, establishes
             principles for determining the costs of grants, contracts and other agreements with
             non-profit organizations.
           o OMB Circular A-133, Audits of States, Local Governments and Non-Profit
             Organizations, sets forth standards for obtaining consistency and uniformity


                                                1
           among Federal agencies for the audit of non-profit organizations expending
           Federal awards.

•   Prompt Payment Act. This act requires Federal agencies to make payments in a timely
    manner, pay interest penalties when payments are late, and take discounts only when
    payments are made within the discount period. BBG did not always make payments
    within 30 days, as required. Additionally BBG did not always pay interest on payments
    made after the 30-day requirement or accurately calculate the interest that was paid.

•   Antideficiency Act. The Antideficiency Act (ADA) prohibits BBG from (1) making or
    authorizing an expenditure from, or creating or authorizing an obligation under, any
    appropriation or fund in excess of the amount available in the appropriation or fund
    unless authorized by law; (2) involving BBG in any obligation to pay money before funds
    have been appropriated for that purpose, unless otherwise allowed by law; and (3)
    making obligations or expenditures in excess of an apportionment or reapportionment, or
    in excess of the amount permitted by agency regulations. Several potential ADA
    violations have been identified at BBG. We found that BBG recorded an obligation
    related to an annual grant agreement that was in excess of its annual appropriation, which
    is a potential ADA violation. In addition, we noted a BBG fund with a negative balance.
    Finally, the Office of Inspector General (OIG) identified two practices that were potential
    ADA violations related to the use of personal services contracts and contractors without
    valid contracts in place.

•   Federal Acquisition Regulation. The Federal Acquisition Regulation (FAR) is the
    primary guidance for Federal acquisitions of supplies and services using appropriated
    funds. OIG is currently conducting an audit of BBG’s acquisition functions. Based on
    the preliminary results of the audit, OIG has identified instances of noncompliance with
    the FAR during pre-solicitation, pre-award, and contract administration phases of the
    acquisition process, including inadequate performance of full and open competition and
    price determination.

•   Internal Revenue Service Code. The Internal Revenue Service (IRS) is the U.S.
    Government agency responsible for tax collection and tax law enforcement. IRS is
    assessing how BBG processes payments to certain individuals engaged to support BBG.
    The IRS has questioned BBG’s practice of not withholding Federal employment taxes on
    compensation to personal service contractors (PSC) and purchase order vendors (POV).
    The IRS issued a “notice of proposed adjustment” in 2013, concluding that BBG should
    have treated PSCs and POVs as employees, rather than independent contractors, for tax
    purposes. BBG is in the process of responding to the IRS review. However, BBG may
    be liable for employment taxes relating to PSC and POV payments dating back to 2010.

•   Federal Managers' Financial Integrity Act – The Federal Managers’ Financial Integrity
    Act requires executive branch agencies to establish and maintain effective internal
    control. The heads of agencies must annually evaluate and report on the effectiveness of
    the internal control and financial management systems that protect the integrity of


                                             2
       Federal programs. We found that BBG did not complete its annual evaluation in FY
       2013.

Except as noted above, our tests of compliance with the provisions of selected laws, regulations,
contracts, and grant agreements disclosed no other instances of noncompliance that would be
reportable under the standards applicable to financial audits contained in Government Auditing
Standards and OMB Bulletin No. 14-02.

During the audit, we noted certain additional matters involving compliance that we will report to
BBG management in a separate letter.

BBG’s Response to Findings

BBG management has provided its response to our findings in a separate memorandum attached
to this report. We did not audit management’s response, and accordingly, we express no opinion
on it.

Purpose of This Report

The purpose of this report is solely to describe the scope of our testing of compliance and the
results of that testing, and not to provide an opinion on the effectiveness of BBG’s compliance.
This report is an integral part of an audit performed in accordance with auditing standards
generally accepted in the United States of America, Government Auditing Standards, and OMB
Bulletin No. 14-02, in considering BBG’s compliance. Accordingly, this report is not suitable
for any other purpose.




Alexandria, Virginia
December 14, 2013




                                                3
                 BROADCASl'ING BOARD OF GOVERNORS
                 UNIT'ED STATES OF AMERICA




       December 16,2013

       The Honorable Steve A. Liuick
       Deputy Inspector General
       Office of Inspector General
       2201 C StreeL, N.W.
       Washington, DC 20520

       Dear Mr. Linick:


       The Performance and Accountability Report (PAR) is our principal report to the President,
       Congress, and the American people on our stewardship of the public funds to which we have
       been entrusted. Tile PAR is a key element and essential discipline in disclosing the BBG's
       financial status !md providing transparency and accountability.      "D1e PAR provides a
       comprehensive view of the BBG's financial activities set against the backdrop of the global
       issues and engagements we face as a smaJI agency working to advance U.S. broadcasting
       interests abroad.

       I am pleased that the I3BG has received an unqualified audit opinion for FY 2013. I recognize
       that there were material weaknesses and significant deficiencies identified during the course of
       audit that will require continued focus and dedication throughout · the agency. We remain
       committ.cd to corporate governance and continuing to improve our financial management and
       internal controls. We are dedicated to addressing these items and meeti.t1g these challenges.

      Our ultimate goal is to suppo1t an accmmtable and efficient financial platform that furthers the
      BBG's global broadcasting operations and mission as well as provide nccurate and high-value
       finuncia l information for decision-makers. Given the global and complex nature of our
      operations, there will always be areas of concern nnd opportunities for improvement. We
      understand that fact, and I am confident in our resolve as we continue to manage the BBG's
      .finite resources on behalf of America's taxpayers in s upport of U.S. International Broadcasting.

      Twant to than k Kew·ney & Company for their efforts and professionalism in working through the
      many complex issues associated with the BBG's financial processes.

      Sincerely,



      t.,eslie Hyl
      ChiefFinancial Officer


330 INDI!PENDJo~CE AVENUE, SW   ROOM 3360   COHEN BUUJJING   WASlllN(.iUN. DC 20237   (202) 203-4545   FAX (202) 203-4568




                                                        1
